HHS/OIG, Audit -"Review of Norman Regional Hospital Outpatient Cardiac Rehabilitation Services,"(A-06-03-00053)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Norman Regional Hospital Outpatient Cardiac Rehabilitation Services," (A-06-03-00053)
October 20, 2003
Complete
Text of Report is available in PDF format (478 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicare properly reimbursed
Norman Regional Hospital (Hospital) for outpatient cardiac rehabilitation services.  We determined that the Hospital
did not designate a physician to directly supervise the services provided by its cardiac rehabilitation program.  In
addition, contrary to current Medicare requirements, we could not identify the physician professional services to which
the cardiac rehabilitation services were provided incident to.  From our specific claims review of 19 of the 38
Medicare beneficiaries who received outpatient cardiac rehabilitation services during CY 2001, we determined that the
Hospital claimed and received Medicare reimbursement for three beneficiaries services, amounting to $521, which may
not have met Medicare coverage requirements or which were otherwise unallowable.  In addition, we found documentation
errors related to the remaining 16 beneficiaries.  We recommended that the Hospital work with its fiscal intermediary,
Chisholm Administrative Services, to ensure that their outpatient cardiac rehabilitation program is being conducted in
accordance with the Medicare coverage requirement that the services be provided incident to a physicians professional
service and reimburse Medicare $521 for CY 2001 outpatient cardiac rehabilitation services provided to beneficiaries
which were not supported by medical record documentation or which were otherwise unallowable.  We also recommended
that the Hospital work with its fiscal intermediary to establish any repayment liability related to other beneficiaries
receiving outpatient cardiac rehabilitation services during 2001 that were not included in our sample and to implement
controls related to the billing and documentation of outpatient cardiac rehabilitation services.